                           National Archives and Records Administration
                           Office ofInspector General                                           8601 Adelphi Road
                                                                               College Park, Maryland 20740-6001

  Date 	        March 24, 2010

  Reply to: 	   Office ofInspector General (OIG)

  Subject: 	    Management Letter No. 10-08, Award Fee Program for the Electronic Records Archives 

                Development Contract 


 To: 	          David S. Ferriero, Archivist of the United States (N)

 The purpose ofthis Management Letter (ML) is to follow-up on ML No. 09-08 "Award Fee Program for
 the Electronic Records Archives (ERA) Development Contract," dated January 15,2009. We reviewed
 the Action Plan submitted by the Acting Archivist, dated February 24,2009, and attempted to determine
 whether appropriate actions had been taken to address problems with the ERA award fee program.
 Unfortunately, the ERA award fee program is still not functioning in an efficient and effective manner.
 Many ofthe problems identified over a year ago still plague our agency's largest contract, and the
 changes indicated in the Action Plan have not been adopted. The conditions discussed in this report
 once again combine to create a lack of transparency and accountability in the ERA program.

 The ERA is NARA's most important and technologically advanced information technology program.
Representing hundreds of millions of tax-payer dollars, the ERA is NARA's solution to the
exponentially expanding problems, and opportunities, associated with electronic records. For this
seminal program, the agency awarded a multi-year, multi-increment, cost-plus-award-fee (CP AF)
contract to the Lockheed Martin Corporation (LMC). In a CPAF contract the government is given one
primary vehicle to motivate the contractor to provide an excellent work product, the payment of a bonus
based on the government's subjective evaluation of contractor performance. Therefore, the Award Fee
is the government's main opportunity to provide direct incentives to the contractor. NARA's continued
lack of diligence in addressing the Award Fee Program is disturbing and must be corrected, or the ERA
could be put at risk of increased cost and decreased value to our shareholders.

 After the issuance ofML No. 09-08, National Archives and Records Administration (NARA)
management formulated an Action Plan declaring a new Award Fee Plan would be finalized in June of
2009. However, as of March 10,2010, no new Award Fee Plan had been implemented. Further, there
are issues with the process the ERA office has used to pay award fees for Increment 2 of the ERA
contract, the development of the Executive Office of the President (EOP) instance of ERA.
Management Letter No. 09-08 focused exclusively on Increment 1 of the ERA contract. For this
management letter we reviewed the three six-month award fee periods (periods 5, 6 and 7) for LMC's
work on Increment 2 against the existing Award Fee Plan, and once again found several issues of
concern.! Significantly, for periods 5 and 6 the ERA office was not following the plan by keeping
appropriate written records of their decisions. Despite the fact over $2 million was paid out as bonuses
in these periods, NARA had not documented their decisions or evaluations as required. In fact, critical
documentation was not prepared until the OIG requested it.

1 Periods 5 and 6 covered the time frame from September 7, 2007 to September 8, 2008. However, neither fee was fmalized
until December of 2008, so they were not considered in Management Letter 09-08. Period 7 covered the time frame from
September 10,2008 to March, 312009, and the fee was finalized in March of201O. No other award fees have been paid.
 The Award Fee Plan requires NARA experts to evaluate LMC in 37 categories called '''performance
 aspects." These ratings are to be evaluated by NARA's Performance Evaluation Board, which is
 supposed to produce a report, called the Performance Evaluation Board Report (PEBR), to the Program
 Director (PD) and Contracting Officer (CO). The PD and CO were supposed to consider the PEBR and
 then make a final decision in an Award Fee Determination Report (AFDR). We discovered that for
 periods 5 and 6, the ERA office never produced written evaluations of the performance aspects, a PEBR
 or an AFDR before paying the award fees.

 Furthermore, once reviewed, the reports produced for the OIG were found to be both inconsistent with
 the requirements of the plan, and inconsistent in content. Numbers and ratings did not flow from the
 actual evaluations through to the AFDRs. Several performance aspects were simply left out and
 unevaluated; while some performance aspects were paid for even when the justification indicated they
were not directly applicable to the work in these periods. In the justification section for one
performance aspect it explains how the "poor rating was upgraded to satisfactory." However, in the
rating section the rating was listed as "Good." This is significant because the Award Fee Plan
specifically states "satisfactory or below performance will not be rewarded." In the "System
Development" performance aspect NARA expressed concerns about the code quality on the project and
LMC's "ad-hoc process" for addressing it. However, this same aspect was rated as "Outstanding" to be
paid out at 100%. Further, the written performance aspect evaluations were nearly verbatim between the
two periods, with only nine new sentences in the entire 16-page report for the second period. For one
performance aspect, the justification narrative did not change at all, but the score increased from 80% to
100%. Based upon the issues with the documentation provided, we are unable to perform an effective
review of the process for determining award fees paid for periods 5 and 6.

 The period 7 award fee is the only fee evaluated and paid after NARA issued their Action Plan. Upon
reviewing the period 7 documentation several issues were evident. NARA continues to be late in
evaluating and paying LMC; the period 7 fee was finalized approximately one year after the period
closed. Untimely payments may affect the effectiveness of the program to provide the proper incentive.
NARA also still does not evaluate the final deliverable ofthe contract increment. According to the
Award Fee Plan, "The second part ofthe award fee evaluation is based on the success of the specific
Increments' final system delivery ... ; thus, the evaluation and award fee determination is six months
after the delivery of the increment (i.e., six months after Initial Operational Capability)." By ignoring
this part of the Award Fee Plan and neglecting to evaluate the final deliverable as a whole (i.e. the EOP
instance), NARA significantly dilutes the incentive to produce an outstanding deliverable.

 Additionally, the period 7 fee documentation has several of the same issues as mentioned above. The
 scores and percentages do not track from one report to the next. Some performance aspects were not
 evaluated or mentioned at all, including "Integration and Test" and "Acceptance Test Support." The
"Subcontract Management" aspect states the contractor did not meet the smaIVsmall-disadvantaged
business subcontracting goals, but was rated as "Very Good." The award fee plan has "does not meet
small business goals" as part of the criteria for a "PoorlUnsatisfactory" rating; and for a "Good" rating
lists part ofthe criteria as "Small business goals have been exceeded by 5%." Code quality continued to
be a concern as in the last two periods. NARA reported the contractor continued to use an ad-hoc
process for addressing code quality, reviewed several problems with retroactively fixing non­
conforming code, and stated the contractor "should acknowledge the reality that code quality has to be
instituted and strived from the beginning." However, NARA still rated the relevant performance aspect
as "Very Good."
     Under the Award Fee Plan the ERA Program Director (PD) is the final authority for determining the
     amount of the award fee. As such, the PD has the ability to take the recommendations of the PEBR and
     deviate by either increasing or decreasing the award fee. For all three ofthe reviewed periods in this
     letter the PD used their ability to approve greater award fees than recommended by the Performance
     Evaluation Board. These additional fees totaled approximately $805,000. According to the Award Fee
     Plan, the "determination of the amount of award fee earned and the basis for this determination will be
     stated in the Award Fee Determination Report (AFDR)" which would then be sent to LMC. The PD did
    not follow this, and no period's AFDR matches the award fee paid. It appears the AFDRs were prepared
    prior to the PD making a final decision (and at least in one case, prior even to the preparation of the
    Performance Evaluation Board Report). However, the PD did document his decisions in memos to the
    CO. In these memos the PD criticized NARA's award fee plan for not being "more in line with
    important program requirements," and recommended paying greater award fees by citing some specific
    examples and explaining the PD felt the contractor's performance as a whole was greater than the sum
    of its parts. We believe that ifthe PD decides to deviate from the documented observations and
    recommendations developed under the Award Fee Plan; then a more robust explanation of this deviation
    is necessary, as envisioned in the AFDR. A more full and transparent, public explanation of such
    unitary decisions by the PD would build confidence in the system and protect NARA from any potential
    allegations of untoward conduct.

    Further, these memos by the PD span three award fee periods, accounting for 18 months of work, and
    they all call for are-writing ofthe Award Fee Plan. At no time during these three periods did NARA
    exercise its right to unilaterally change the Award Fee Plan. 2

    While it is impossible to say with certainty what effect all of these issues have had on the ERA program,
    it arguably may have led to decreased performance incentives and higher costs to NARA. It should be a
    noted the ERA program has a new PD and a new CO, and the contents of this letter have been discussed
    with them. We are encouraged by their initial feedback and look forward to working with them in the
    future. By May 1, 2010, please submit an action plan to theOIG describing how you plan to address the
    issues discussed in this management letter. If you have any questions, or require additional information
    pertaining to the ERA award fee program, please do not hesitate to contact me.



~/7~J
Paul Brachfeld
Inspector General

cc: 

NH (M. Morphy) 





2   A unilateral change by NARA may be done by written notice 30 days before the beginning of an award period.
